CERTIFICATE OF SERVICE
William B. Trescott
Petitioner
v.
The Federal Motor Carrier Safety Administration,
Respondent
I HEREBY CERTIFY that I caused to be served at least three copies of
the enclosed Petition for a Writ of Certiorari by First Class Mail on the
following separately represented parties:
Representing The Federal Motor Carrier Safety Administration:
Elizabeth Prelogar
Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530*0001.
202*514*2203

JENNIFER L. UTRECHT
Appellate Staff Civil Division,
Room 7710, US Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530*0001
(202) 353*9039

ALAN HANSON, CHARLES J. FROMM, Nancy Jackson
Federal Motor Carrier Safety Administration
Office of Chief Counsel (MC*CCE)
1200 New Jersey Avenue, S.E., Suite W60-300
Washington, D.C. 20590
Representing International Brotherhood of Teamsters, Local 2785 and
Everardo Luna:
David A. Rosenfeld, Caitlin Gray
WEINBERG, ROGER & ROSENFELD
1001 Marina Village Parkway, Suite 200
Alameda, California 94501
(510) 337*1001
Representing International Brotherhood of Teamsters, Local 8485 Charles
“Lucky” Lepins! Julio Garcia! Jesus Maldonado! and Jose Paz:
Julie Gutman Dickinson
Bush Gottlieb
801 North Brand Boulevard, Suite 950
Glendale, California 91203*1260
(818) 973*3200

1 of 4

Representing the State of California:
Miles E. Locker
Attorney for the Labor Commissioner
455 Golden Gate Avenue, 9th Floor
San Francisco, California 94102
(415) 703-4863
Representing DUY NAM LY and PHILLIP MORGAN:
Stan Saltzman, Adam Tamburelli
MARLIN & SALTZMAN
29800 Agoura Road, Suite 210
Agoura Hills, CA 91310
(818) 991-8080
Deepak Gupta, Jonathan E. Taylor, Gregory A. Beck
GUPTA WESSLER PLLC
1900 L Street, NW, Suite 312
Washington, DC 20036
(202) 888-1741
Representing the STATE of WASHINGTON
Anastasia Sandstrom
Senior Counsel
ROBERT W. FERGUSON Attorney General
800 Fifth Ave., Ste. 2000
Seattle, WA 98104
(206) 464-6993
Representing the NATIONAL ARMORED CAR ASSOCIATION:
Spencer C. Skeen, Tim L. Johnson, Nikolas T. Djordjevski,
OGLETREE, DEAKINS, NASH, SMOAK & STEWART, P.C.
4370 La Jolla Village Drive, Suite 990
San Diego, California 92122
858.652.3100

2 of 4

■}

Representing AMERICAN TRUCKING ASSOCIATIONS, INC.,
CALIFORNIA TRUCKING ASSOCIATION, WASHINGTON TRUCKING
ASSOCIATIONS, INTERMODAL ASSOCIATION OF NORTH AMERICA,
AND AMERICAN MOVING AND STORAGE ASSOCIATION:
Richard Pianka
ATA Litigation Center
950 N. Glebe Road
Arlington, Virginia 22203
(703) 838-1889
Representing the Chamber of Commerce of the United States of America:
Daryl Joseffer, Tara S. Morrissey
U.S. CHAMBER LITIGATION CENTER
1615 H Street, N.W.
Washington, D.C. 20062
(202) 463-5337
Malcolm A. Heinicke, Joseph D. Lee
MUNGER, TOLLES & OLSON LLP
350 South Grand Avenue, Fiftieth Floor
Los Angeles, California 90071-3426
(213)683-9100 .
Representing CRST EXPEDITED, INC., FAF, INC., HEARTLAND
EXPRESS, INC. OF IOWA, JOHN CHRISTNER TRUCKING, LLC,
PENSKE LOGISTICS LLC, PENSKE TRUCK LEASING CO., L.P., RAIL
DELIVERY SERVICES, INC., AND U.S. XPRESS, INC:
James H. Hanson
SCOPELITIS, GARVIN, LIGHT, HANSON & FEARY, P.C.
10 West Market Street, Suite 1400
Indianapolis, IN 46204
317-637-1777
Adam Smedstad
SCOPELITIS, GARVIN, LIGHT, HANSON & FEARY, P.C.
3214 W. McGraw Street, Suite 30IF
Seattle, WA 98199
206-288-6192

3 of 4

Representing the EMPLOYMENT LAWYERS ASSOCIATIONS:
Adam Berger
Sehroeter Goldmark & Bender
810 Third Avenue, Suite 500
Seattle, Washington 98104
(206)622-8000
Aaron Kaufmann
Leonard Carder, LLP
1330 Broadway, Suite 1450
Oakland, CA 94612
(510) 272-0169

Daniel F. Johnson
Breskin Johnson & Townsend PLLC
1111 Third Avenue, Suite 2230
Seattle WA 98101
(206) 652-8660
Ashley Westby
National Employment Lawyers Association
1828 L Street, NW, Suite 600
Washington, DC 20036
(202) 898-2880 extl23

Representing SPECIALIZED CARRIERS & RIGGING ASSOCIATION;
PODS ENTERPRISES, LLC; RYDER SYSTEM INC.; and WESTERN
STATES TRUCKING ASSOCIATION:
David R. Krause-Leemon
BEAUDOIN & KRAUSE-LEEMON, LLP
15165 Ventura Boulevard, Suite 400
Sherman Oaks, California 91403
(818)205-2809

Carl Bentzel
Bentzel Strategies L.L.C.
4908 Willes Vision Dr.
Bowie, MD 20720
(301) 352-6025

Aaron Parker
PODS Enterprises, LLC
13535 Feather Sound Drive
Clearwater FL 33762
(727) 538-6385

Bob Fatovic
Ryder System, Inc.
11690 NW 105th Street
Miami, Florida 33178
305-500-7797

Pursuant to 28 U.S.C. § 1746, Rule 29.5(c), I declare under penalty of perjury
that the foregoing is true and correct.
Executed on

/f^ Ull

Respectfully Submitted,

William B. Trescott
26276 Farm to Market Road 457
Bay City, Texas 77414
(979) 244-3134
4 of 4

